<html>
<title> - SMART CONSTRUCTION: INCREASING OPPORTUNITIES FOR SMALL BUSINESSES IN INFRASTRUCTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
 SMART CONSTRUCTION: INCREASING OPPORTUNITIES FOR SMALL BUSINESSES IN 
                             INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the

             SUBCOMMITTEE ON CONTRACTING AND INFRASTRUCTURE

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                           NOVEMBER 19, 2019

                               __________
                               
                               

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               

            Small Business Committee Document Number 116-060
             Available via the GPO Website: www.govinfo.gov
             
             
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 38-316                 WASHINGTON : 2020
 
 
     
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania
                       DAN BISHOP, North Carolina

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                   
                            C O N T E N T S

                           OPENING STATEMENTS

Hon. Jared Golden................................................     1
Hon. Pete Stauber................................................     2

                               WITNESSES

Mr. Lennart Andersson, RA, Director of Virtual Design, 
  Construction & Operations (VDCO), LiRo Group, Professor, Pratt 
  Institute, New York, NY, testifying on behalf of the American 
  Society of Civil Engineers (ASCE), the Construction Institute 
  (CI), LiRo Group, and Pratt Institute..........................     5
Mr. Ryan Forrestel, President, Cold Spring Construction, Akron, 
  NY.............................................................     6
Mr. Chris Shephard, Vice President, Construction Solutions Group, 
  Trimble, Inc., Dayton, OH......................................     8
Mr. Phillip Ogilby, CEO and Co-founder, STACK Construction 
  Technologies, Cincinnati, OH...................................    10

                                APPENDIX

Prepared Statements:
    Mr. Lennart Andersson, RA, Director of Virtual Design, 
      Construction & Operations (VDCO), LiRo Group, Professor, 
      Pratt Institute, New York, NY, testifying on behalf of the 
      American Society of Civil Engineers (ASCE), the 
      Construction Institute (CI), LiRo Group, and Pratt 
      Institute..................................................    24
    Mr. Ryan Forrestel, President, Cold Spring Construction, 
      Akron, NY..................................................    31
    Mr. Chris Shephard, Vice President, Construction Solutions 
      Group, Trimble, Inc., Dayton, OH...........................    35
    Mr. Phillip Ogilby, CEO and Co-founder, STACK Construction 
      Technologies, Cincinnati, OH...............................    41
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    ABC - Associated Builders and Contractors....................    49
    Autodesk Construction........................................    50


 SMART CONSTRUCTION: INCREASING OPPORTUNITIES FOR SMALL BUSINESSES IN 
                             INFRASTRUCTURE

                              ----------                              


                       TUESDAY, NOVEMBER 19, 2019

                  House of Representatives,
               Committee on Small Business,
    Subcommittee on Contracting and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2360, Rayburn House Office Building. Hon. Jared Golden 
[chairman of the Subcommittee] presiding.
    Present: Representatives Golden, Chabot, Balderson, 
Hagedorn, and Stauber.
    Chairman GOLDEN. Good morning, and thank you for joining 
us. I look forward to having a good conversation here about the 
future of the construction industry and how we might be able to 
make some necessary improvements.
    I think we all know that America's infrastructure needs 
some pretty focused investment in order to catch up to where we 
should be. And everyone knows the statistics from the American 
Society of Civil Engineers, both nationally and in their 
specific home states. It lays out a clear map for improvement 
and where we are falling behind.
    This is one reason why there must be a strong 
infrastructure agenda in Congress, and in particular, one that 
focuses on investing in outdated roads, bridges, rails, water 
systems, housing. I could go on and on.
    Doing this not only increases opportunities for small 
businesses in construction, manufacturing, engineering, and 
many more small businesses, but it also will help create good 
paying job opportunities and increase our competitiveness as a 
Nation.
    The current administration I think shares this 
understanding that we need to invest in our infrastructure and 
that this should be a top priority, as well I think as both 
parties in Congress. So really sometimes we are not sure what 
is holding us back but we need to continue to have these 
conversations and be pushing our leadership to go ahead and 
move forward with an infrastructure spending package. Not just 
roads and bridges. We need a comprehensive infrastructure 
package that incorporates information technology and 
communications so that our Nation not only has the fastest and 
most efficient infrastructure, but also the most modern.
    With the Internet, things like artificial intelligence and 
cloud computing offer new opportunities for smart applications 
in many new industries, and old.
    In particular, technology has the ability to reshape the 
construction industry by creating digital construction 
solutions where small firms can help lead the way.
    From GPS-enabled equipment to advanced digital modeling, 
smart tools are making projects less expensive more 
ecofriendly, and more efficient. More importantly, digital 
construction helps level the playing field for small 
contractors. Through investing in digital tools, small 
businesses can write lower bids and compete for larger 
projects.
    Smart tools also pay for themselves. Increased business and 
timelier project completion allows small contractors to bring 
in more business. Early adoption of digital technologies 
creates a competitive advantage. In fact, almost 70 percent of 
owners say poor performance is the single biggest reason for 
project underperformance and only 25 percent projects have come 
within 10 percent of their original deadline in the past 3 
years.
    Digital tools also give contractors access to powerful data 
that can help them make informed decisions about materials and 
design to make structures safer. Smart buildings enabled by 
digital tools help civil engineers, developers, and architects 
reduce a building's carbon footprint and increase 
sustainability.
    Inspecting structures, like bridges and tall buildings was 
once a dangerous, time-consuming task. Now, prop tech sensors 
are built into buildings that can help assess when there is 
damage and when buildings need to have some maintenance.
    Drones also offer a way to survey buildings and terrain 
after natural disasters is just one example. These cutting-edge 
solutions cut costs and save lives.
    I hope that today's discussion will help shed a little 
light on the many ways that digital construction can benefit 
small businesses and encourage broader adoption of digital 
tools.
    I want to thank each of the witnesses for joining us today, 
and I look forward to your testimony.
    I would now yield to the Ranking Member, Mr. Stauber, for 
an opening statement.
    Mr. STAUBER. Thank you, Chair Golden. And thank you for 
holding this important hearing. It is a pleasure to work with 
you on this Committee.
    On our modern day worksites, you might see workers studying 
a 3D printed model instead of blueprints, or remotely operating 
an autonomous crane in the safety of an office. Stakeholders 
might prefer a virtual reality or aerial tour instead of 
physically touring the project. No longer limited to R&D 
engineers, construction workers at all levels are harnessing 
digital technologies to optimize productivity, quality, and 
safety.
    These technologies have brought the worksite into the hands 
of its operators. Smartphone apps can not only link employees 
to each other but also enable access to vital project data 
stored in the cloud. The data may be sourced by drones, 
artificial intelligence, virtual reality, and 3D modeling.
    Digitized construction technologies and processes can have 
a significant impact on a construction company's productivity, 
but many small firms lack the resources to invest and maximize 
potential of these technologies.
    Similarly, regulatory and administrative burdens have 
restricted implementation across Federal, state, and local 
agencies. Without greater usage by small business and 
government agencies, no infrastructure modernization strategy 
will meet our Nation's needs.
    As Congress continues to work on infrastructure 
modernization legislature, including the Surface Transportation 
Reauthorization and WRDA, we must focus on facilitating a 
regulatory environment that allows for new technologies to be 
deployed in the field. These reauthorizations usually are a 
fairly long-term 5 year authorization. Technology is changing 
so rapidly that we risk falling behind if we are too technology 
prescriptive in legislating.
    We have the opportunity to empower small businesses to lead 
the charge on modern construction technologies, a charge that 
will lower costs, increase sustainability, increase 
productivity, and being more efficient, allow more projects to 
be built and maintained with less money.
    For example, in my home state of Minnesota, the Department 
of Transportation is pioneering the use of drones to inspect 
over 13,358 bridges. They have also developed robust lifecycle 
cost analysis standards and practices, and are working with 
industry partners to prepare Minnesota for an autonomous 
vehicle future. By going high-tech, the state will maximize 
every dollar of infrastructure investment.
    In addition to this Committee, I serve on the House 
Transportation and Infrastructure Committee. It is incumbent 
upon these two Committees to take steps towards investing in a 
technology-forward infrastructure plan and ensure that small 
businesses are positioned to help in its execution.
    Thank you to our witnesses for being here today. And Mr. 
Chair, I yield back.
    Chairman GOLDEN. Thank you very much.
    I do not know how often the four of you have sat in front 
of Committees here in Congress, so I will quickly go over some 
of the rules around timing.
    Each of you will get 5 minutes to testify. Members will get 
5 minutes for questions as well. There is a lighting system in 
front of you. The green light will be on when you begin, and 
the yellow light will give you a 1-minute warning while you are 
reading through your opening remarks. The red light comes on 
when you are out of time, and we would ask that you try and 
stay as best you can within that timeframe.
    I would now like to introduce our first witness. Mr. 
Andersson is an architect with a degree in engineering from 
Sweden and a Master's in Architecture from Savannah College of 
Art and Design with over 20 years of experience. He has applied 
virtual design construction and operation methodologies on a 
wide variety of building typologies. He is the director of 
VDCO, at the LiRo--did I get that right? LiRo Group, and 
teaches at Pratt Institute in New York, where he is leading a 
collaborative BIM studio between architects, construction and 
facilities managers. Welcome, Mr. Andersson.
    Our next witness is Mr. Ryan Forrestel, president at Cold 
Spring Construction Company based in Akron, New York. I was 
about to say Ohio there. I got that wrong. Cold Spring 
Construction was founded 108 years ago by Mr. Forrestel's great 
grandfather and has completed numerous large and small scale 
projects across New York. He is also a Co-Chair of the Fair 
Apportionment of Infrastructure Committee of West New York, a 
nonpartisan advocacy organization whose primary goal is to 
ensure that Western and Upstate New York receives their fair 
share of transportation funds distributed by the State of New 
York. He has earned a Bachelor's degree in Biology and 
Biomedical Sciences from Brown University and a Master's degree 
in Civil Engineering from Penn State University. Thank you for 
joining us today, sir.
    Our third witness, Mr. Shephard, vice president of the 
Construction Solutions Group at Trimble. Trimble is a company 
whose mission is to transform the way the world works by 
delivering products and services that connect the physical and 
digital worlds. He has been a part of the executive team at 
Trimble for the past 20 years and has worked in 30 years on six 
continents and managed more than 3,000 employees. Before 
Trimble, Mr. Shephard served Copeland and Booz Allen Hamilton 
helping clients solve strategic problems all over the world. He 
holds a B.A. in Business Studies with a foreign language from 
the Manchester Metropolitan University and a Master's degree in 
Management from Northwest University. Welcome, Mr. Shephard. 
Thank you for joining us.
    And I would now yield to our Full Committee Ranking Member. 
No, I would not. I am sorry about that.
    I do have the introduction prepared. Wonderful. I will 
yield to Ranking Member, Mr. Stauber, for introducing our final 
witness.
    Mr. STAUBER. Thank you, Mr. Chair.
    Our final witness is Phillip Ogilby. Mr. Ogilby, I was 
going to refer this to Ranking Member Chabot to introduce you, 
but since he is not here you will have to take this 
Minnesotan's word for it.
    Mr. Ogilby is the chief executive officer and co-founder of 
STACK Construction Technologies. Founded and headquartered in 
Cincinnati, Ohio, STACK Construction Technologies is a leading 
cloud-based preconstruction collaboration platform. After a 
decade owning a construction company, Mr. Ogilby entered the 
construction tech industry with his son, Justin, who was only 
14 years old at the time. Using Justin's coding skills, and 
Phil's entrepreneurial spirit, the father-son team have created 
multiple construction technologies and startups since 1995. 
With a 262 percent 3-year growth rate--I want to repeat that. 
With a 262 percent 3-year growth rate, STACK is one of the 
Nation's fastest-growing private companies. Thank you for 
coming here to represent high-tech family business and the 
innovative spirit of Cincinnati.
    Chairman GOLDEN. Thank you very much, all of you, for 
joining us. We will go ahead and do our opening statements.
    And we would start with Mr. Andersson, you are recognized 
for 5 minutes.

   STATEMENTS OF LENNART ANDERSSON, RA, DIRECTOR OF VIRTUAL 
    DESIGN, CONSTRUCTION AND OPERATIONS (VDCO), LIRO GROUP, 
  PROFESSOR, PRATT INSTITUTE; RYAN FORRESTEL, PRESIDENT, COLD 
     SPRING CONSTRUCTION; CHRIS SHEPHARD, VICE PRESIDENT, 
 CONSTRUCTION SOLUTIONS GROUP, TRIMBLE, INC.; PHILLIP OGILBY, 
      CEO AND CO-FOUNDER, STACK CONSTRUCTION TECHNOLOGIES

                 STATEMENT OF LENNART ANDERSSON

    Mr. ANDERSSON. Thank you very much, Chairman Golden, 
Ranking Member Stauber, and members of the Subcommittee. And 
thank you very much for inviting me here.
    As said, my name is Lennart Andersson. I lived in New York 
City now for 20 years. I originally come from Sweden, and I 
have been working in the infrastructure sector in New York City 
for these 20 years. And I am appearing here today on behalf of 
the American Society of Civil Engineers. I am representing the 
150,000 members.
    ASCE is the Nation's oldest national engineering society. 
And the construction industry I am representing as well. And it 
has provided leadership and vision and problem-solving skills 
for construction design professionals for the past 20 years.
    I appreciate the opportunity to be here today to discuss 
this smart construction and increasing opportunities for small 
businesses. ASE is eager to work with Congress to find ways to 
improve project delivery at all stages, including planning, 
funding, design, construction, operations, maintenance, and 
decommissioning on projects.
    All phases of construction are poised to change and evolve 
in the coming years, incorporating traditional tools of the 
trade and new technologies that could transform the way 
projects are completed. The industry has a lot to gain from 
these new innovative technologies so that we can build better 
buildings and infrastructure and communities.
    Today's construction design can be slow to adapt to change 
and incorporate technology because of the complexity and long 
duration of projects.
    In 2017, the McKenzie Global Institute released a report 
that stated that efficiency of architecture, engineering, and 
construction, often called AEC, the efficiency dropped 26 
percent since 1991 to 2017, while the average non-AEC business 
in the United States increased its efficiency by 48 percent. 
That is actually a 100 percent difference.
    So the tools and processes used in the infrastructure 
construction are still largely analog and manual. And if 
properly implemented, the very latest technology will enable 
the construction industry to achieve higher quality results.
    And on projects in New York City, we have been testing the 
very latest, actually, we are sort of seeing that you are 
achieving much better results.
    The virtual design and construction not only creates 
assimilation of the project but as a part of the construction 
process it helps to create budgets and schedules as projects go 
through funding approval and access a single repository for all 
project scope and design documentation. It simplifies owner-
engineer collaboration through interactive processes and 
manages in duration of the projects' budget, schedule, and 
design. And it creates detail estimates and schedules by 
managing documents, changes, and forecasts, and drives field 
productivity from anywhere with mobile solutions.
    Virtual design and construction also enables access to a 
single searchable repository for as-designed or as-built 
information to facilitate construction, maintenance, and 
operation activities.
    Just one example of East Side Access, a new station 
underneath Grand Central Terminal in the United States in New 
York City where I have been involved for the last 7 years, and 
it is the largest infrastructure project in the United States. 
And we had four people modeling the whole project. It is 6 
miles, 125 complex models. It was documented the traditional 
way, so over 100,000 drawings. And so we were able to actually 
create a model that everybody can see the complexity. By 
applying automated reality capture and digitization of 
documentation, processes, and common-sense standards, it is 
possible to realize the digital twin of infrastructure before 
construction. This model is used for planning and augmenting 
the design for all stakeholders through interactive interfaces. 
The digital copy is also used for traffic simulations, virtual 
mockups, staging, planning, construction phasing, site safety 
analysis, as well as community outreach, which also help 
accelerate decision-making and optimize execution.
    BIM increases transparency and fosters an environment of 
participation for all stakeholders. This method of virtual 
design sets the stage for more collaborative forms of project 
delivery methods. BIM also coincides with lean construction and 
public-private partnership projects, where timely coordination 
and accurate information is paramount.
    So we have an opportunity to use small businesses as change 
makers of infrastructure. Innovation is often more difficult to 
implement in larger organizations, while small businesses are 
inherently forced to innovate in order to be competitive.
    So ASCE looks forward to working with the House Committee 
on Small Business and Congress to find ways to improve 
America's built environment so that every family, community, 
and business can thrive. So thank you very much.
    Chairman GOLDEN. Thank you, sir. And we look forward to 
getting a little more out of your testimony through the Q&A 
phase of things.
    Mr. ANDERSSON. Sure.
    Chairman GOLDEN. So thank you.
    Mr. Forrestel, we now recognize you. Thank you.

                  STATEMENT OF RYAN FORRESTEL

    Mr. FORRESTEL. Thank you.
    Good morning, Chairman Golden and Ranking Member Stauber.
    My name is Ryan Forrestel, and I am the president of Cold 
Spring Construction. We are a 4th generation family business 
based in Akron, New York, outside of Buffalo. We have been 
performing civil and heavy highway construction projects in the 
western half of New York State and Northwestern Pennsylvania 
since Cold Spring was founded in 1911 by my great grandfather.
    We employ about 120 people in our peak season, and as a 
family business, we are not just a family in terms of the long-
term establishment and operation of the business, but we are a 
family business in terms of the families that we employ. We 
have multiple members of many families working for our 
business, and we treat our people like family. We care about 
them like family. We would not have the success that we have 
without them. So things like today are very important to us to 
continue that success and to do everything that we can to take 
care of those people in our families.
    We have done projects ranging in size from a few hundred 
thousand dollars to $130 million, large projects relative to 
the size of our company. That is one of the things that we 
focus on in terms of developing our people to be able to do 
that and leveraging technology and other resources so that we 
are able to compete at those kinds of levels.
    One of the things that we have invested in in the last 15 
to 20 years is technology related to digital models and 
automated machine guidance. These technologies have allowed 
Cold Spring to handle projects that would have been difficult 
or impossible without the utilization of these technologies. In 
addition, we have been able to complete these projects more 
accurately and on tighter schedules than if we had not been 
using these technologies. And this has been something that we 
have seen over the last 10 years with greater frequency that we 
have been able to hit schedules or exceed schedules pretty 
dramatically. And this is largely contributed to by the use of 
technology.
    I have heard arguments from other contractors of the years 
that implantation of digital technologies as was alluded to 
earlier, is too expensive and it is just for large 
corporations. It is too expensive for smaller businesses not to 
invest in these technologies. When we are seeing increases in 
efficiency of 20 percent or many times that in some instances 
businesses that do not make these investments will not survive. 
And I think as we are going to talk here today, it is important 
that these technologies are not only allowed but encouraged, 
and so everybody needs to get on board and this needs to be 
pushed forward.
    I will talk a little bit about the advantages that these 
technologies offer. The first most obvious is efficiency. 
Everybody wants to be more efficient. These technologies are 
pushed forward as offering that efficiency, which they do. But 
some of the more subtle aspects of the benefits are the access 
to information that these technologies provide. One of the big 
problems in the field when things are done the old-fashioned 
way with pieces of paper is changes are made and people in the 
field do not know what those changes are. Using digital 
technology and life-time information, when changes are made, 
everybody knows what they are and they are implemented right 
away. Nobody starts out doing the wrong thing and then has to 
go back and do rework, which is one of the most expensive 
things in construction.
    And in that same vein, we can avoid problems. If we are 
building a digital model that incorporates all aspects of the 
project and all of the things around it, we can see conflicts 
and the way that new construction interfaces with existing 
infrastructure before we build it. Whereas, oftentimes in the 
past we begin construction and then we encounter a problem 
partway through, which again requires rework, it is expensive, 
it is time-consuming, and it is certainly not the most 
efficient way to do work.
    And another big factor is safety. We have numerous people. 
Historically, we have had numerous people on the ground around 
heavy equipment checking grades, laying out construction, and 
for example, in pipe trenches as well. A guy is down in a hole 
checking grade, putting pipe in. Now, we have the opportunity 
to do all those things from in the cabs of machines. It takes 
those people out of harm's way. Takes those people out of 
trenches, which eliminates one of the most dangerous aspects of 
construction being trench collapses. And another thing it 
allows which contributes to efficiency as well is where it was 
impossible to do work during dark hours, during nighttime hours 
without huge amounts of lighting, now we can take those people 
who are on foot out of the construction site. Only the machines 
are operating. It makes it much safer and gives the ability to 
be much more efficient.
    So to briefly wrap up, I want to say that Cold Spring works 
cooperatively with owners and agencies to implement these 
technologies but a lot more can be done to help move this along 
and bring forward some of the small businesses that have not 
engaged in this. Project design from inception to completion 
should be done in a way that complements the use of digital 
data. Specifications should be written and revised to allow 
technologies to foster their adoption their adoption and use. 
These actions are only a benefit to agencies and taxpayers as 
they allow projects to be completed more accurately, more 
timely, and more cost effectively. Thank you.
    Chairman GOLDEN. Thank you very much.
    Next, we will hear from Mr. Shephard.

                  STATEMENT OF CHRIS SHEPHARD

    Mr. SHEPHARD. Thank you. And good morning, Chairman Golden 
and Ranking Member Stauber.
    My name is Chris Shephard, and I am the vice president at 
Trimble. I have been with the company for 21 years, and as you 
can probably tell from my accent, I am based in Dayton, Ohio.
    Trimble is a global technology company--I am an American 
citizen, do not worry--focused on transforming the way work is 
done through the use of intelligent integrated technologies and 
innovative solutions.
    Trimble innovation enables economic breakthroughs while 
enhancing safety, increasing productivity, and reducing 
environmental impact. Our software, hardware, and services are 
transforming industries, such as agriculture, construction, and 
transportation and logistics.
    As my colleagues have already mentioned, the construction 
industry is ripe for innovation. We are talking about a $10 
trillion global industry. And McKenzie was referenced earlier a 
couple times, their estimate is that about 10 to 15 percent of 
that $10 trillion is waste. That is a lot of money.
    The industry has historically used size and scale to do its 
work. Bigger machines, more machines, more people, more nails, 
more cement, more tools. This reliance on scale creates a major 
disadvantage for small businesses who do not have the capital 
or volume of work to be able to absorb these inefficiencies.
    Today, ineffective planning communication and collaboration 
cause the most problems and drive up project costs. The use of 
digital construction technologies provide small businesses with 
the information they need to better manage their costs, 
schedules, and resources, and levels the playing field so that 
they compete with their larger rivals.
    A few examples of digital construction technologies would 
include application software and modeling that allows 
contractors to remotely monitor site progress from their office 
and create design models that can be sent to the machine 
operators and crews in real-time. Machine control and guidance 
systems that provide machine operators real-time positioning 
for guidance and control of their machines, allowing them to 
accurately grade, compact, and pave to specification. And site 
positioning systems allow contractors to measure, check, 
manage, and inspect all the phases of their efforts and paving 
operations.
    When these technologies are used on infrastructure projects 
the results are significant and measurable. Machine 
productivity increases by 30 percent. Rework can be reduced by 
up to 50 percent. And overall project delivery costs are 
improved by up to 30 percent.
    And technology does not just increase the bottom line. It 
also improves environmental sustainability by reducing the use 
of fuel and the loss of resources to waste.
    Small businesses are the lifeblood of the construction 
industry. And technology is allowing them to compete against 
the larger players in the industry. I would like to highlight 
just a couple of examples of small businesses that are 
achieving success using Trimble technology.
    First of all, Mr. Chairman, your home state of Maine, the 
Shaw Brothers of Gorham, Maine, are using GPS machine control 
systems to improve the efficiency and equality of their work 
which has generated savings in project times and overall costs. 
And on larger jobs, the state DOT will sometimes use Shaw 
Brothers' 3D files to inspect and keep a record of the work 
that has been done, making the DOT's work more efficient, too.
    The second example, Ajax Paving in Detroit, Michigan. Ajax 
Paving was able to keep a machine moving through dense fog 
while paving a highway project in Northern Michigan, preventing 
a shutdown that would have wasted 200 feet of concrete that had 
already been dumped in front of the paver.
    Our 50 state DOTs have a high level of awareness of the 
benefits of digital construction. However, investments in these 
capabilities compete for scarce resources with much needed 
infrastructure projects in each state which has in many cases 
limited the pace and scope of adoption of the systems and 
capabilities which would support enhanced management and 
oversight of the projects themselves.
    Resources provided by the Federal Government would 
accelerate the advancement of these project delivery efficiency 
tools. Trimble supports a provision in the Senate 
Infrastructure Bill which creates incentives for states to 
upgrade the technical skills of the engineers and technicians 
who we all count on to enable digital construction delivery. 
This will result in safer roads, better lifecycle costs, and 
less disruptions to commerce in communities across America.
    Small businesses will also benefit from states adopting the 
use of 3D models through the construction lifecycle as it 
allows them to fully realize the benefits from their 
investments in digital construction technologies.
    So in conclusion, I would say the construction industry is 
often criticized for its inefficiency and waste, but today we 
have the technology to ensure the projects are delivered on 
time and on budget. Increasing the adoption of digital 
construction technologies not only leads to better quality 
infrastructure delivered at a lower cost and with less 
environmental impact, but it also levels the playing field for 
small contractors to compete with the larger players in their 
industries and to grow their businesses. Thank you.
    Chairman GOLDEN. Thank you very much, sir.
    And in closing, we will give the last 5 minutes to Mr. 
Ogilby.

                  STATEMENT OF PHILLIP OGILBY

    Mr. OGILBY. Hi, everybody. Thanks.
    First of all, thanks for the opportunity. I very much 
appreciate it. I appreciate the kind words at the opening as 
well. I have got a fair amount to say, so I tend to talk fairly 
quickly and it is going to take that to get through this in 5 
minutes.
    My background is in construction. I was a contractor in the 
very early days. I have started now two significant technology 
businesses, STACK being the most recent, and we have thousands 
of customers worldwide.
    Our customers are small businesses. So fundamentally, I 
love the direction of the whole hearing today. This is about 
our customers. That is who we are talking about here. So, I 
have got some words about why pay attention to me. Much of that 
has already been covered.
    You know, the construction industry represents 6 percent of 
the global GDP worldwide. Construction is the single largest 
consumer of raw materials worldwide as well.
    You know, one of the big challenges as I was doing research 
for this, it was very interesting to find people are moving 
into urban areas at a very, very rapid pace, and it is creating 
a huge demand for infrastructure worldwide. Not only in the 
U.S., but worldwide. In fact, the U.N. estimates that by 2050, 
there could be as many as 7 billion people living in urban 
areas. That would be up from 3.5 billion people today.
    Autodesk, the world's leader in design software, in fact, 
estimates that that could create a demand for as many as 1,000 
new buildings a day over the next coming decades just to meet 
the demand for infrastructure worldwide. This continuing trend 
requires a massive amount of new construction and renovations 
to be done.
    U.S. construction spending in 2017 topped $1.27 trillion. 
It is expected to reach $1.5 trillion by 2023. The bigger 
problem here is the industry cannot keep up, candidly. The 
industry, the current pace of construction productivity cannot 
begin to keep up. There have been studies already referenced, 
productivity gains across the industries outside of 
construction have exceeded 10 or 15 times or more. The actual 
productivity level of construction has dropped over the last 80 
years. A big part of that is the complexity of the projects, 
but the failure to adopt technology is also a drain on the 
system.
    We also have an enormous labor shortage. So while we cannot 
affect that personally with technology, I could not go through 
this process without at least addressing the labor shortage. 
But there is a high failure rate of construction startups as 
well that is also a problem within our industry. Again, we 
focus on the small businesses, candidly, and I was shocked at 
this statistic. If you start a new construction company in the 
U.S. today, 25 percent of you will be out of business next 
year, within 12 months. Seventy-four percent of all new 
businesses started in construction today will be out of 
business within 5 years.
    One big simple drain on this or cause, if you will, is poor 
adoption of new technology. There is a tremendous amount of 
very powerful technology available today, but candidly, the 
construction industry adopts technology at a very slow pace. If 
you look at studies that have been done across all industries, 
construction is at the very bottom in terms of the adoption 
rate of new technology.
    Digitization, adopting new technology is the answer that we 
can bring to the table today. There has been a study, the World 
Economic Forum did a study that predicts an increase in savings 
and cost savings as much as 20 percent by full digitization of 
our industry as an impact. Globally, this could unlock as much 
as $1.2 trillion in costs.
    I have a couple of asks for the Committee today. One is 
obviously to find creative ways to help the industry adopt new 
technology at a much faster pace.
    Consider mandating the use of technology on government-
funded projects and not just at the general contractor level 
but push that all the way down to the subcontractor level.
    And then my last ask is interesting. It is consider 
directly impacting adoption for contractors by extending grants 
to construction technology providers such as ourselves that we 
can use to subsidize the cost for the smallest companies who 
need to make that move into technology. Thanks again very much.
    Chairman GOLDEN. Thank you all very much for the testimony 
that you have shared with us today.
    I am going to very quickly go a little bit out of order 
just because I want to point out that my wonderful wife Isobel 
is visiting. She is sitting over here. She snuck in once we got 
started. So she is here to make sure I am on my best behavior 
during the Q&A.
    So I thought one of the first things I would ask, just to 
go ahead and go right at one of the more potential political 
questions that you might expect someone to ask when talking 
about going digital, talking about automation and other things, 
always there is a real fear out there about the replacement of 
middle class, good blue collar construction jobs and others. I 
think, Mr. Andersson, you kind of directly said it in a 
positive light where you said the very latest technology will 
enable fewer people to do more and achieve a higher quality 
outcome. Of course, there are some people who might fear that 
this could pick winners and losers out there in the 
construction industry. And I just wanted to give, I thought Mr. 
Andersson, and maybe Mr. Forrestel an opportunity to talk about 
this because, obviously, like you said, you are a family 
business. You want to take care of your entire family. And I 
know you all want to keep people working. So just your thoughts 
in general about those who might have concerns about job loss.
    Mr. ANDERSSON. If you look at the needs of infrastructure 
in this country, I think we need to become much more efficient 
because I think if you look at New York City, I think there is 
a huge issue because there are cost overruns traditionally. It 
makes it hard to make new initiatives. We need new tunnels. We 
need so much in New York City. But I think because of all these 
cost overruns there have been issues that actually hurt 
industry. And I think the efficiency, we can do much more to a 
high quality.
    Mr. FORRESTEL. Well, I think to reference what Mr. Ogilby 
said, there is a huge shortage of tradespeople for the 
construction industry in this country. I mean, it is widely 
acknowledged by the Associated General Contractors of America 
that construction employment is a real problem in terms of 
companies finding good workers. And I think the one point that 
Mr. Andersson made about the technology reducing the number of 
people because of the increase in efficiency which we need to 
see in the industry for many reasons is a big deal, but I think 
it is also an opportunity to attract more members of the 
younger generations into the industry. They do not want to dig 
ditches with shovels. They want to be involved in something 
interesting and engaging. And this technology, a lot of these 
technologies offer that opportunity for the younger generations 
who are used to engaging in those technologies, or technologies 
similar to what we are using in the construction industry. So I 
think it provides real opportunity not to exclude people who 
might want jobs that actually include----
    Chairman GOLDEN. And do you think your workforce or 
potential future workforce is getting the kind of training 
opportunities and exposure to the kind of competency in digital 
technologies or, you know, new equipment, more modern, forward-
leaning equipment?
    Mr. FORRESTEL. No, I do not think the adequate training is 
out there. I think there is some movement to head in that 
direction, but we are not seeing it yet. It hit our people in 
the field, so a lot of our training for that is once we hire 
people, but it is an opportunity. And I think it is an 
opportunity to take an industry that has been considered dusty 
and dirty and dangerous over the generations to be something 
that is really an opportunity. It is an opportunity for people 
to make a fantastic living doing really interesting work and 
really meaningful work. I mean, I know our people take enormous 
pride in traveling around Western New York, telling their kids 
about the projects they worked on.
    Chairman GOLDEN. Oh, yeah, these are great jobs. I think a 
lot of people back home in Maine also take pride in being a 
part of the construction industry.
    One of the things I love most about your testimony, sir, 
was talking about the distribution of information in the field 
and preventing rework. The Marine in me, they put a big 
emphasis on, you know, if you do not get information out into 
the field, how can people make frontline decisions and not make 
mistakes. So it makes a lot of sense to me in terms of the 
digital stuff.
    Mr. Shephard, I want to give you in the closing time I have 
here, an opportunity to field a question.
    As people were talking about the expenses of new equipment, 
automation, digital technology and others, I was thinking about 
the BETE tax exemption programs for equipment that I became 
familiar with back home in Maine, if you know what I am talking 
about, the Better Equipment Tax Exemption Program which I 
imagine would cost something like an automated bulldozer. But 
would it also include things like digital technology upgrades 
that would improve the efficiency and planning phase? Could a 
company write off those types of investments as well under that 
program?
    Mr. SHEPHARD. I am not sure, Mr. Chairman, but if it does 
not, it ought to.
    Chairman GOLDEN. Mr. Andersson?
    Mr. ANDERSSON. It actually does. Yes, we bought this 
$250,000 laser scanning equipment and it is a write-off. And it 
has made a huge difference for us, so.
    Mr. SHEPHARD. Do I have a second just to comment?
    Chairman GOLDEN. Yes.
    Mr. SHEPHARD. I think what is important to Bill and what 
Lennart said in his opening remarks as well, we need to go from 
the beginning to the end of the process; right? We make systems 
that can be used all the way throughout the process, but if you 
do not start with a digital beginning, a design, and then pull 
it all the way through, that is where you get the real 
advantage all the way through the construction process.
    Chairman GOLDEN. Thank you very much. I am out of time, so 
I am going to go ahead and yield to Ranking Member Stauber.
    Mr. STAUBER. Thank you, Mr. Chair.
    Your testimony, all of your testimonies were fascinating to 
me. You talk about digital technologies, where it is at.
    In my hometown, in Hermantown, Minnesota, small town, we 
put up a health and wellness center, and it had to be bonded. 
And to make people understand what it was going to be like, you 
put the goggles on and you literally walked through the health 
and wellness center and it was amazing. And so you talk about 
the technologies you are putting forward. I think this is 
absolutely where it is at.
    There are a couple of questions, Mr. Shephard, for you 
first. I am aware that the Minnesota Department of 
Transportation and Trimble have worked together on intelligent 
compaction and a tool called Eroutes. Could you expand on what 
these projects look like and what came out as a result of the 
collaboration with MnDOT?
    Mr. SHEPHARD. Yes. Sorry about that. I have to press the 
button.
    Actually, I am glad you brought that up because the 
Minnesota DOT now mandates the use of intelligent compaction on 
its projects. And what that does is it guarantees the quality 
of the finished product by knowing that you are compacting to 
the right specification every time that you do the compaction. 
So that is a use of technology on the compaction material, on 
the compaction equipment, the compactors that can make the 
right number of passes at the right, provide the right, I keep 
saying the word ``compaction.'' Sorry. It is all about 
compaction. It gets the compaction correct without having to do 
any more rework or guessing or missing spots in the place. So 
it really gets the quality you have done the first time 
accurately and you can be assured that it is okay.
    Mr. STAUBER. Which maximizes the investment.
    Mr. SHEPHARD. Well, it improves dramatically the quality of 
the finished project, the road or the pad or whatever it is. 
You get it built right to the design and there is no guesswork.
    Mr. STAUBER. I just want to put a plug in for the Minnesota 
Department of Transportation. I was the Chair of Public Works 
and Transportation for a county and I am extremely proud of 
that relationship the counties and MnDOT have built to maximize 
that investment using these new technologies. Very critical.
    Another question I have, in March--this is for Mr. Ogilby. 
In March, I introduced H.R. 1890, the Preserving America's 
Infrastructure Dollars, the PAID Act, which would require 
states to conduct a lifecycle cost analysis on infrastructure 
projects that use more than $30 million in Federal funds. How 
do digital technologies reduce lifecycle costs for larger 
infrastructure projects?
    Mr. OGILBY. Push the button. That is a great question.
    From the infrastructure standpoint--I am not confident that 
I can answer correctly.
    Mr. STAUBER. Anybody? Can anybody answer that? Go ahead, 
Mr. Andersson. And then, Mr. Ogilby, you can finish your 
sentence.
    Mr. OGILBY. Sure, thanks.
    Mr. ANDERSSON. So we work with B&T, Bridges and Tunnels in 
New York City. A lot of existing facilities. The vast majority 
is nine facilities. And there we actually are scanning and 
modeling all the existing facilities and then the asset 
management piece is a huge, sort of unknown as far as I think 
their budget is $2 billion the next 3 years just to maintain 
these facilities. We have found multiple steps of 
inefficiencies. They cannot find the records to maintain this. 
People move much more in the workplace than they used to so you 
do not have the guy that worked there for 30 years that know 
where these things is. So we are digitizing everything so you 
can actually quickly find a piece of equipment. And you are 
talking millions in savings every year. Just alone, just to 
find things and now what to do so you can fix something 
quickly.
    Mr. STAUBER. Thank you.
    Mr. Ogilby, finish. Thank you.
    Mr. OGILBY. Actually, I wanted to touch on something Mr. 
Golden brought up earlier which was around the workforce. And 
so just some stats that I had dug up.
    There were 300,000--according to the U.S. Bureau of Labor 
Statistics, 300,000 vacancies in the construction industry in 
June of this year, expected to climb to 757,000 by 2026. So, 
yeah, there is more labor needed dramatically, and I would not 
place that as a concern----
    Mr. STAUBER. Okay. Thank you.
    Mr. OGILBY.--regarding technology adoption at all.
    Mr. STAUBER. Interesting.
    Mr. Forrestel, with your company, it sounds like very well 
respected, 4th generation. Can you tell us, give us an 
approximate amount that your company invests per year in 
digital technology to stay competitive? Just a rough estimate.
    Mr. FORRESTEL. It has varied some. We were fortunate to be 
an early adopter when we had a lot of work that the technology 
was applicable to. But I would say on average the technology 
across the board, we are investing 5 percent----
    Mr. STAUBER. Okay.
    Mr. OGILBY.--of sales in technology.
    Mr. SHEPHARD. That is 2-1/2 times the industry average.
    Mr. STAUBER. That is 2-1/2 times the industry average. 
Okay.
    Mr. OGILBY. But at the same time, we are seeing enormous 
returns on that. Very fast return on investment. And then 
everything above and beyond that ROI is profit or being able to 
bid projects at a lower price and procure more work and do it 
more cost effectively for the owners.
    Mr. STAUBER. I think you mentioned in your testimony that 
small businesses cannot afford not to invest in this technology 
to stay competitive. And Mr. Ogilby, you talked about, I could 
not believe this stat, but one out of four construction 
startups will be out of business in one year.
    Mr. OGILBY. Yeah, that is correct. And it is really 
stunning. And we see it. I mean, these are our customers, and 
so we see it, unfortunately. But that is the case today.
    Mr. STAUBER. Right.
    Mr. OGILBY. One thing I would just like to add on, too, I 
think it was Mr. Golden asked about the current tax breaks that 
are in place. I think most of that we find is around hardware 
and equipment. So just from the pure technology standpoint, I 
do not think there is much out there available today.
    Mr. STAUBER. Okay. Thank you very much.
    Chairman GOLDEN. We would now recognize Mr. Hagedorn, from 
Minnesota's 1st Congressional District.
    Mr. HAGEDORN. Mr. Chairman, I am happy to defer to our 
Ranking Member Chabot.
    Mr. CHABOT. Go ahead, please.
    Mr. HAGEDORN. Are you sure?
    Mr. CHABOT. Yes.
    Mr. HAGEDORN. Okay.
    Thank you for the opportunity. I appreciate it.
    I take it that this technology, this digital technology 
helps you be more precise. Would that make some sense? And your 
planning, reduce costs, things like that, certainly, it could 
be an advantage if you are bidding on contracts, you are 
probably going to be viewed as the team that is going to maybe 
have the best deal or at least be the closest to the end.
    So Mr. Forrestel, what is your experience? How much can you 
save in these areas? How important is it to be efficient by 
using this type of technology?
    Mr. FORRESTEL. It depends somewhat on the type of project. 
Some projects it is easier to leverage the technology for cost 
savings than others. We were fortunate----
    Mr. HAGEDORN. Give us an example of a difference. Different 
type of projects.
    Mr. FORRESTEL. So big earthwork projects are sort of the 
natural fit for the automated machine guidance type work where 
you are moving huge quantities of dirt. You can move it more 
quickly because everybody who is working on the site in a 
machine knows when they are getting close to what the finished 
product needs to be. They are not getting somewhere in the 
ballpark and then the survey crew has to come out and check 
grades again. They are grading to the finished grade and they 
are done. So that is where some of the biggest efficiencies 
lie.
    I gave an example in my written testimony of roadway 
grading where the efficiency has improved in the neighborhood 
of 500 percent with automated machine guidance. And so on long 
expressway-type projects that are new construction or full 
reconstruction, the savings are astronomical. And initially, we 
were fortunate because not knowing what those savings were 
going to be, we realized a lot of those as profits which 
allowed us to cover our costs of implementing the technology 
early. Now, we are competing against more contractors who are 
sharing in the same advantages, so now those savings are being 
passed on to the agencies and ultimately the taxpayers.
    Mr. HAGEDORN. That is good.
    Is it considered now the industry standard that you have to 
do this or are states requiring it to make bids?
    Mr. FORRESTEL. There are not requirements. There have been 
more changes in the specifications to allow it. Initially, we 
saw resistance from a lot of the agencies because it was just 
unchartered territory. They did not have the same reference 
points to look at that they used to, oftentimes being stakes in 
the ground. That was all information on a computer screen, so 
they had trouble adjusting to that. But we are getting there in 
terms of allowing it. I think now it needs to be encouraged or 
required.
    Mr. HAGEDORN. Now you have kind of proven the technology a 
little bit and they see the benefits.
    So Mr. Ogilby, you talk about workforce issues, and I 
happen to be somebody that agrees with you 100 percent. For a 
long time in this country we almost discouraged people from 
getting into a vocational trade certificate program, skilled 
labor. Told them if you did not go to a 4-year college you are 
just not going to amount to anything. That turned out to be not 
such a good thing. And now we are trying to get folks to the 
point where they have a choice. And whatever they choose to do, 
whatever is in their heart, they should be fostered, enabled to 
do that.
    A piece of legislation that I have introduced with 
Congressman Van Drew of New Jersey, it is bipartisan, it is 
called the American Workforce Empowerment Act, and it would 
make it so these 529 education savings accounts could be 
applied to certificate programs, apprenticeships, skilled labor 
type fields, the purchase of tools and equipment. Is that the 
type of legislation that you might be able to help us with?
    Mr. OGILBY. Oh, that is fabulous. I love that. Yeah, that 
is fabulous. Yeah, 100 percent. You know, there has been a 
stigma around it and we have alluded to it. My friend from the 
AGC I am sure would confirm. I mean, it is probably, aside 
from, you know, the adoption technology, we have an enormous 
lever with technology where we can really drive efficiency, and 
this Committee is doing the right thing. But on the labor side 
it is the single number one biggest problem and challenge for 
the construction industry as a whole today without question.
    Mr. HAGEDORN. Does anyone else have a comment on the 
skilled workforce issue? You pretty much agree?
    Mr. SHEPHARD. Yeah, definitely. We are testing in New York 
actually the apprenticeship model, sort of reverse mentoring. 
It is sort of a generational thing. The kids growing up, they 
just run with this technology. But the people that are really 
experienced are not so familiar with it. So teaming a young 
person up with an experienced, and we have seen some really 
interesting results on that.
    Mr. HAGEDORN. Thank you. That is H.R. 4469. So thank you 
very much. I appreciate it.
    Mr. OGILBY. Yeah, thank you for that.
    One thing I will add is that technology can be a carrot 
here as well, right, for adopting, for getting new people to 
want to move into the industry. The more we adopt technology as 
an industry, I think the more attractive it becomes to young 
people. And a couple other fellows made that comment as well.
    Mr. HAGEDORN. Thanks very much. I yield back.
    Chairman GOLDEN. Thank you very much.
    We will now call upon the Full Committee Ranking Member, 
Congressman Chabot, from Ohio's 1st Congressional District.
    Mr. CHABOT. Thank you very much, Mr. Chairman.
    And Mr. Ogilby, I will go to you if I can. Welcome, again. 
I understand my colleague from Minnesota introduced you. I 
hoped to be over here but unfortunately, around this place, 
things always come up and change plans.
    Mr. OGILBY. No worries. No worries. Thank you very much.
    Mr. CHABOT. The best laid plan. But it is great to have you 
here, as well as it is the other witnesses.
    Your company, STACK, has experienced some really incredible 
growth in a relatively short period of time. Could you talk 
about the types of financing that you have secured to 
facilitate that growth? I know you talked about going to 20 
different cities and being told no by various venture 
capitalists.
    Mr. OGILBY. You have done some research.
    Mr. CHABOT. Yeah. So if you want to talk about that, 
perhaps, and also, what availability did you find in our 
community in Cincinnati that you found helpful in growing your 
business?
    Mr. OGILBY. Yeah, sure. Well, first of all, my story goes 
back probably, well, 2 decades now. So when I started iSqFt, 
which was my last startup, now employs more than 1,000 people. 
It is known as Construct Connect, still based there in 
Cincinnati. A lot of those war stories around raising money and 
traveling around the country, I finally found an angel investor 
in Cincinnati to help us fund that business and get it off the 
ground.
    Mr. CHABOT. What would you say America's greatest city is 
again?
    Mr. OGILBY. That would be Cincinnati.
    Mr. CHABOT. Thank you. I appreciate that. Go ahead.
    Mr. OGILBY. Thank you, Mr. Chabot.
    And by the way, the State of Ohio was very helpful with 
additional financing to get our young, very young business off 
the ground 2 years ago or 3 years ago.
    Mr. CHABOT. Greatest city and the greatest state. I am just 
saying. But go ahead.
    Mr. SHEPHARD. If I could jump on the bandwagon, my daughter 
goes to the University of Cincinnati. So I would just like to 
jump on.
    Mr. CHABOT. Oh, excellent. Our daughter is a graduate of 
the DAP program there and my wife is a graduate there as well, 
so great school in a great city. No, go ahead.
    Mr. OGILBY. Thank you for the opportunity. I could expand 
but----
    Mr. CHABOT. So anyway, on the financing and----
    Mr. OGILBY. Yes.
    Mr. CHABOT.--Cincinnati, and how you went through this 
process.
    Mr. OGILBY. Sure, sure, sure.
    So, well, very early on, again, I literally traveled the 
country. There was some resistance. Everybody I met with it 
seemed like told me this was the greatest idea. They could not 
believe nobody was doing it already. I was in San Francisco 
many times. You know, New York, Chicago, many, many times. And 
at the end of the day, I was able to secure angel financing in 
Cincinnati, and we had a very friendly angel who helped us to 
continue that business even when we were still hearing no 
locally. We did finally secure financing from a local 
Cincinnati venture firm in River Cities Capital and Chrysalis 
Ventures out of Louisville. That was my last startup.
    Today, we have funding out of the City of New York, the 
great state of New York with Level Equity, but you know, it is 
all money very, very well invested. And driving technology into 
this industry is not for the faint of heart but it has been a 
very rewarding experience as well. I love hearing the stories 
about the impact of technology. We literally have hundreds and 
hundreds of testimonials from customers who tell us how it has 
impacted their business and their family lives and the impact 
of their family of their employees. And it is just very, very 
gratifying. So this is near and dear to my heart what you folks 
are putting together here, the concept.
    Mr. CHABOT. Thank you. And it is my understanding that 
STACK provides colleges and universities with free access to 
its pre-construction tools. How do these partnerships help with 
industry workforce development, and what impact has that had on 
your business?
    Mr. OGILBY. You know, it is something we have debated 
through the years. Being a relatively small business still 
today we do not always feel like we have the resources we need 
to do that but it has been a tremendous program. So we do that. 
As you have explained, we offer free technology, our solutions 
free for universities, and it has been a powerful thing for the 
ones who have adopted it. And obviously, the goal being we want 
to seed the market with experienced operators of the technology 
as they go into the workplace.
    Mr. CHABOT. Very good. And then finally, how do platforms 
like STACK integrate with other tools that are offered by other 
companies? How do businesses learn how to fully utilize these 
tools?
    Mr. OGILBY. Yeah, that is a great question. Training is a 
whole another issues, and training is getting easier and easier 
with the modern tools and the modern design. Training today is 
not nearly what it was 25 years ago with desktop software 
solutions. So training is less and less of a challenge for us 
every day.
    But one of the things that we do focus on is integrating 
with other platforms. We are not everything to everybody, and 
we do not intend to be. And I think most solutions are the 
same. So we see a tremendous amount of value in integrating. So 
we have an API behind our platform but it is really a set of 
hooks that other software can use to pull and push data in and 
out of our platform. I know Trimble has the same sort of 
things. And it is becoming more and more common in the industry 
to do that, but I think ultimately success and widespread 
adoption across the industry of technology is really going to 
require that kind of interconnectivity between apps.
    Mr. CHABOT. Thank you very much.
    Mr. Chairman, my time has expired. Thank you.
    Mr. OGILBY. Thank you.
    Chairman GOLDEN. Thank you very much.
    We will now move on to Congressman Balderson, also of Ohio, 
and Ranking Member of the Subcommittee on Innovation and 
Workforce Development.
    Mr. BALDERSON. Thank you, Mr. Chairman. And thank you, 
panel, for being here today. I have never talked this much 
about Ohio in a long time. I am glad to hear that we all agree.
    And this question is broad for the whole panel, so anybody 
can go in any particular order you would like to go. But I want 
to thank you again all for being here today.
    I sit on this Committee, and also the T&I Committee, like 
our Ranking Member, Representative Stauber also sit on the T&I 
Committee. So I know how critical it is to fix our Nation's 
crumbling infrastructure.
    In your written testimonies, each of you highlighted the 
rate of adoption, or rather the lack of thereof of new 
technologies by small construction businesses, as well as the 
state departments of transportation. Would each of you share 
some of the reasons this is the case? And have there been any 
cases we can look at in which states or small businesses have 
done a good job of adopting innovative technologies?
    And as I said, you all make this--whoever is ready to go, 
go right ahead.
    Mr. ANDERSSON. One of the issues we are finding is rate of 
adoption, I have been at this for 20 years now, is that a lot 
of the standards and requirements are outdated. So when you get 
a project from an agency, you are supposed to use CAD 2D 
drawings and submit the piece of paper. So the effect that you 
have to maintain a legacy system and innovate on the new side 
becomes very expensive. So it will be much easier if agencies 
start mandating these new technologies and then you can 
actually make the decision without maintaining the old system.
    Mr. SHEPHARD. If I can just add, you know, representing a 
manufacturer that develops these tools, the software, the 
hardware, et cetera, back at Woodland it says we do not want 
people to mandate our specific products. I do not want the 
world to be mandated to be Trimble products. That would be nice 
but that is not what is needed. We are happy to work with 
everybody to increase the adoption broadly and then all boats 
rise on the tide. And we will take our chances individually as 
which consumer prefers the right solution. And we work 
collaboratively with people that we compete with in the 
marketplace every day to try and find innovative ways to 
increase adoptions so that we can gain all these efficiencies 
that we have all testified to today. So we are happy to do 
that. It is really about seeding the mindset to ease the 
adoption.
    Mr. BALDERSON. Would anybody else like to add? If not----
    Mr. FORRESTEL. Sure.
    Mr. BALDERSON.--my follow up--oh, go ahead. I am sorry.
    Mr. FORRESTEL. I can add a little bit from the construction 
industry side in terms of resistance to adoption. I think it 
has been alluded to some today but our industry is old school. 
You know, guys who start construction companies like to buy 
their iron, their equipment, and technology does not 
necessarily fit the same mold. So I remember when we were 
getting into it, my father was questioning the expense of 
investing in the technology. He said, well, that stuff does not 
move dirt or put pavement on the ground. Well, no, it does not, 
but it helps you do it a lot faster and a lot more accurately 
and a lot more efficiently. So it is getting over the hump for 
some people of understanding exactly what it does and how much 
it does benefit. And that it is not exactly getting the work 
done but it is helping you get the work done so much more 
efficiently. And that is just what I have seen in the industry 
and through personal experience in terms of being an impediment 
to adoption is just that that perception that it is not the 
nuts and bolts stuff that we have always done.
    Mr. BALDERSON. Okay. Thank you for your answer, all of you.
    My follow up in the brief time I have here left, to the 
best of your knowledge, are there Federal regulations 
preventing these types of systems or technologies from being 
adopted?
    Mr. FORRESTEL. I can name one off the top of my head.
    Mr. BALDERSON. One is one, so.
    Mr. FORRESTEL. For FAA work, paving on airports where the 
owner of the project is the FAA, they mandate paving with 
string lines. That is their specification. And there has been 
some success by us and others to convince them in certain 
instances to be able to use machine automation which in paving, 
whether it is blacktop or concrete, is way more efficient. And 
especially in the tight timeframes that are often required for 
airport work, that is a big deal. And it is just an antiquated 
specification that does not allow for new technology.
    Mr. BALDERSON. Thank you very much, panel.
    Mr. Chairman.
    Chairman GOLDEN. Thank you all very much.
    I am going to go ahead and do another round. I do not know 
if there are other members who might be interested.
    One thing, talking about the workforce training 
opportunities, and it sounds like you are doing a little bit of 
this, Mr. Ogilby. In Maine, when I was in the Maine 
legislature, we went ahead and put a little bit of state money 
into a training program working in the logging industry where 
we do see a lot of technological advancement in the equipment, 
but it is very expensive to have. Hard for a community college 
or a training program, apprenticeship program to purchase half 
a million dollar pieces of equipment or more. So really, we are 
having a hard time getting youth opportunities to get in and 
get trained with that equipment which then made it harder to 
hire them because you are dealing with a pretty expensive piece 
of machinery that requires extra training. So the industry 
actually was willing to kick in some of that equipment so we 
did not have to purchase it and now we had like a nice public-
private partnership where our young loggers were able to get in 
and get enough hours working new equipment so that they were 
entering into the workforce not just trained on one piece of 
equipment which was kind of the industry standard, but on 
multiple pieces of equipment. Now they had a more dynamic, more 
flexible workforce, and more likely to be hired more quickly 
into the jobsite and be more valuable. And if a piece of 
equipment went down, they could just hop on another one.
    So I do not know if you all have seen anything like that 
but even with the digitization side of things, helping to pool 
resources for training opportunities I think is a big part of 
getting a trained and ready workforce.
    I did want to ask if any of you have anything to say about 
potentials around 3D printing in the construction industry. The 
University of Maine Advanced Structures and Composite Center, I 
just have to brag about, they now have the largest 3D printer 
in the world, and they are working with all kinds of neat 
stuff. You know, hybrid manufacturing, 3D printing, using long 
fiber reinforced tapes. They are doing thermoplastics, bio 
resins and other things. You can think about cross-laminated 
timber for the construction industry. They are making 
lightweight tougher than steel axels for equipment and other 
things. It seems to me like the sky is the limit but I am 
curious what you are seeing with 3D printing in the 
construction industry.
    Any of you. Go ahead.
    Mr. SHEPHARD. Just a quick comment on that. We are a 
partner in a venture fund which is led by the Hope family who 
own the Caterpillar dealership in Texas. It is a broad fund 
that is focused on construction technology. And they closed 3 
or 4 months ago. We had the first meeting a couple of weeks 
ago, and one of the businesses they are looking at is a 
business that actually 3D foot homes. Like 1,200 square foot 
homes. It is remarkable. And they are focused on affordable 
housing where you can go into plots of land in underprivileged 
areas and these are really affordable, properly built, durable 
homes and it is a startup out of Texas that is doing that.
    This is an explosion in this area. It is really where, you 
know, one of my soap boxes is this is the fusion of what you 
call just normal manufacturing principles and technology 
brought to the construction space. This is how people have been 
building cars, cutting metal chips all across the Midwest for 
years. So now we are applying these principles, and 3D printing 
is no more than taking a CAD file and putting it on a lathe or 
a machine, a C&C machine that cuts metal to print a house the 
same way.
    Just one quick comment on your education, Mr. Chairman. And 
it ties two things together about the job loss or the fear of 
job loss. We actually work very closely with the unions. We 
have a collaboration, a partnership with the International 
Union of Operating Engineers where we use their facilities, we 
donate equipment, we bring customers to train. The union loves 
it because they can upscale their people. We love their 
facilities and we can use the space and their equipment to show 
our customers and showcase. And it has been a very symbiotic 
relationship where they get something out of it. We get 
something out of it, too. And it helps the workforce.
    Chairman GOLDEN. That is great. Thank you very much. The 3D 
printing aspect, you know, I find very interesting. They just 
did, like I said, the largest 3D printer in the world for now. 
I think we are going to continue to see advancement. But I 
think they did a 30 or 40 foot boat in under 72 hours. If you 
stop and think about that, that is pretty amazing. They started 
it up on Friday and came back in to a finished--it does float, 
yes. I actually got into it.
    Mr. STAUBER. Mr. Chair, I will let you know, my staffer 
asked the question. I did not.
    Chairman GOLDEN. Yeah, that is right. So, you know, more to 
come on that. And thanks for sharing the training partnership 
with operating engineers.
    Go ahead, Mr. Stauber. Thank you, Mr. Chair.
    If Ranking Member Chabot were here I would ask him to have 
a conversation about which state is better because I will take 
Minnesota any day.
    I have got just a couple of comments.
    First of all, thanks for your expertise in sharing this 
with us. I think that by using digitized technologies we can 
save money. That is the investment from the taxpayers. The 
projects, the lifecycle can be longer because of, for instance, 
the compaction is perfect.
    And then one of the things that we talk about is the 
safety. And Mr. Forrestel, you talked about working at night. 
The safety of the men and women that are putting the projects 
together, it is critically important that we invest in these. 
And I am excited.
    Mr. Forrestel, you had mentioned the FAA mandates paving 
with string lines. I am on the Aviation Subcommittee, and I 
turned to the Chair to my staffer here. And I said, this is 
something that we can implement in the RFPs.
    My hometown airport of Duluth, Minnesota, just did a 
complete paving of the runway 927. And if that saves the 
taxpayer money and does it quicker because it is also our F-16 
base. And so these are some things that you as experts can 
bring to us that we can help change and do things better, more 
efficient, maximize the taxpayers' investment. So I really 
appreciate your comments and considerations today. Thank you 
for your time. I hope you felt it was valuable because I know 
we did.
    And to the Chair, thanks for putting this together. These 
are the type of really nonpartisan or bipartisan things that 
we, in Congress, can do to help small businesses succeed. So 
thank you, Chair Golden.
    Chairman GOLDEN. Of course, always a pleasure to work with 
you.
    I would say as well, Mr. Andersson, you were talking about 
having to have two different platforms, you know, drawings and 
sketches, and then also having the 3D option. And it makes me 
think of the need to invest in an advanced workforce within 
government as well, whether that be DOT or other agencies and 
departments at the Federal and state level. If we are not 
investing in a workforce that is able to keep up with the 
private sector, then it will inevitably hold us back. And we 
all know the large role that government plans in regard to the 
procurement of services, many of which you provide in 
construction, particularly with roads and bridges and others. 
So we have got to be looking to that as well. And I am 
interested in the FAA piece as well, Mr. Stauber.
    So I want to thank you all for joining us today. Please 
feel free to send us more info if you have it, or if you think 
you want to add in more or you did not get some of the 
questions that you really wanted to answer, let us know, and we 
are happy to have that information.
    I think it has been a worthy hearing where we have learned 
a little bit about how digital construction tools can help our 
small businesses find opportunities to cut costs and compete 
for more business. Nimble small businesses need a level playing 
field to contribute cost-saving services as we begin to spend 
Federal dollars to improve our Nation's infrastructure. But 
small businesses cannot unlock these opportunities if they fail 
to adopt cost-saving equipment, which is why the members of 
this Committee are looking to raise awareness of the value of 
digital tools and encourage small businesses to actively adopt 
them in construction, design, and engineering.
    I look forward to working on this issue with the Ranking 
Member and members of the Subcommittee and Committee. Some of 
you had some ideas on how we could incentivize some of these 
things and we will be looking back at your testimony and 
advice. So thank you for joining us today.
    And I would go ahead and ask unanimous consent that members 
have 5 legislative days to submit statements and supporting 
materials for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you very much, gentlemen.
    [Whereupon, at 11:17 a.m., the subcommittee was adjourned.]
    
                            A P P E N D I X
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            



                                 <all>
</pre></body></html>
